       DEPARTMENT OF HEALTH & HUMAN SERVICES                                      Office of Inspector General



                                                                                  Washington, D.C. 20201




                                    AUG

TO:            Yolanda J. Butler, Ph.D.
               Acting Director
               Office of Community Services
               Administration for Children and Families


FROM:           oseph E. Vengrin
               Deputy Inspector General for Audit Services


SUBJECT:       Status of the Office of Community Services' Corrective Actions Resulting From
               the Government Accountability Office Review of the Community Services Block
               Grant Program (A-01-09-02502)


The attached final report provides the results of our review of the status of the Office of
Community Services' (OCS) corrective actions resulting from the Government Accountability
Office's (GAO)
           (GAO) review review
                        of 
   of the Community Services Block Grant (CSBG) program. This review
is the first of a series of reviews that will address the internal control structure of the CSBG
program. We are conducting these reviews in response to the $1 billion appropriated for the
CSBG program by the American Recovery and Reinvestment Act of2009, P.L. No. 111-5.
These funds are available for fiscal years 2009 and 2010.

In a June 2006 report on the CSBG program, GAO stated that OCS "lacked effective policies,
procedures, and controls to help ensure that it fully met legal requirements for monitoring states
and internal control standards." GAO also found that OCS did not routinely collect key
information, such as State performance data, to assess State monitoring reports, nor did it
systematically use available information to assess the States' CSBG management risks and target
monitoring to States with the highest risk. To correct th~se deficiencies, GAO made nine
recommendations: five recommendations for executive actions and four recommendations for
strengthening OCS's internal controls to fulfill its CSBG monitoring responsibilities.

Our objective was to determine the status of corrective actions that OCS took to address GAO's
recommendations.

OCS implemented the six recommendations that we reviewed. Specifically, in response to the
recommendations for executive actions, OCS conducted a risk-based assessment of State CSBG
programs and established policies and procedures to help ensure that OCS's onsite monitoring
was focused on the States with the highest risk. In response to the four recommendations
Page 2 – Yolanda J. Butler, Ph.D.


directed at strengthening OCS’s internal controls to fulfill its CSBG monitoring responsibilities,
OCS developed written policies and procedures in the areas that GAO identified.

Because OCS implemented GAO’s recommendations, this report has no recommendations. We
will evaluate the effectiveness of the newly implemented policies and procedures during our
reviews addressing the internal control structure of the CSBG program.

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of Inspector General reports
generally are made available to the public to the extent that information in the report is not
subject to exemptions in the Act. Accordingly, this report will be posted on the Internet at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov.
Please refer to report number A-01-09-02502 in all correspondence.


Attachment
Department of Health and Human Services
 

             OFFICE OF 

        INSPECTOR GENERAL 




  STATUS OF THE OFFICE OF 

   COMMUNITY SERVICES’
 

    CORRECTIVE ACTIONS 

    RESULTING FROM THE 

GOVERNMENT ACCOUNTABILITY 

   OFFICE REVIEW OF THE 

    COMMUNITY SERVICES 

   BLOCK GRANT PROGRAM
 





                     Daniel R. Levinson
 

                      Inspector General 


                        August 2009
 

                       A-01-09-02502
 

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY 


BACKGROUND 


The Community Services Block Grant (CSBG) program funds a State-administered network of
more than 1,100 local agencies that create, coordinate, and deliver programs and services to low-
income Americans. The U.S. Department of Health and Human Services, Administration for
Children and Families, Office of Community Services (OCS), oversees the program.

In a June 2006 report on the CSBG program, the Government Accountability Office (GAO)
stated that OCS “lacked effective policies, procedures, and controls to help ensure that it fully
met legal requirements for monitoring states and internal control standards.” GAO also stated
that OCS did not routinely collect key information, such as State performance data, to assess
State monitoring reports, nor did it systematically use available information to assess the States’
CSBG management risks and target monitoring to States with the highest risk. To correct these
deficiencies, GAO made nine recommendations. Five recommendations were for executive
actions to correct the deficiencies that GAO found, and four recommendations were directed at
strengthening OCS’s internal controls to fulfill its CSBG monitoring responsibilities.

We reviewed the status of six of GAO’s recommendations. We excluded from our review one
recommendation because GAO already approved OCS’s corrective actions. We are separately
reviewing the status of two other recommendations.

This review is the first of a series of reviews that will address the internal control structure of the
CSBG program. We are conducting these reviews in response to the $1 billion appropriated for
the CSBG program by the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5.
These funds are available for fiscal years 2009 and 2010.

OBJECTIVE

Our objective was to determine the status of corrective actions that OCS took to address GAO’s
recommendations.

SUMMARY OF RESULTS

OCS implemented the six recommendations that we reviewed. Specifically, in response to the
recommendations for executive actions, OCS conducted a risk-based assessment of State CSBG
programs and established policies and procedures to help ensure that OCS’s onsite monitoring
was focused on the States with the highest risk. In response to the four recommendations
directed at strengthening OCS’s internal controls to fulfill its CSBG monitoring responsibilities,
OCS developed written policies and procedures in the areas that GAO identified.

Because OCS implemented GAO’s recommendations, this report has no recommendations. We
will evaluate the effectiveness of the newly implemented policies and procedures during our
reviews addressing the internal control structure of the CSBG program.



                                                   i
                                                  TABLE OF CONTENTS 


                                                                                                                              Page

INTRODUCTION................................................................................................................1 


          BACKGROUND .......................................................................................................1 

              Community Services Block Grant .................................................................1 

              Office of Community Services ......................................................................1 

              Federal Requirements ....................................................................................1 

              Prior Government Accountability Office Report...........................................2 

              Office of Inspector General Reviews.............................................................3 


          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................3 

               Objective ........................................................................................................3 

               Scope..............................................................................................................3 

               Methodology ..................................................................................................3          


RESULTS OF AUDIT.........................................................................................................4 


          RECOMMENDATIONS FOR EXECUTIVE ACTIONS ........................................4 

              Conduct a Risk-Based Assessment of State Community Services 

                  Block Grant Programs by Systematically 

                  Collecting and Using Information ..........................................................4 

              Establish Policies and Procedures To Help Ensure That Onsite Monitoring 

                  Is Focused on the States With the Highest Risk.....................................5 


          RECOMMENDATIONS FOR INTERNAL CONTROLS .......................................5 

              Establish Written Policies and Procedures for Ensuring That Teams 

                  Conducting Monitoring Visits Include Staff 

                  With the Requisite Skills ........................................................................5 

              Establish Written Policies and Procedures for Ensuring 

                  Timely Completion of Monitoring Reports to States.............................6 

              Establish Written Policies and Procedures for Maintaining 

                  Documentation on Monitoring Visits.....................................................6 

              Establish Written Policies and Procedures for Ensuring the 

                  Timely Issuance of Annual Reports to Congress ...................................6 





                                                                    ii
                                                  INTRODUCTION 


BACKGROUND

Community Services Block Grant

The Community Services Block Grant (CSBG) was reauthorized by the Community 

Opportunities, Accountability, and Training and Educational Services Act of 1998, P.L. 

No. 105-285 (the CSBG Act), to provide funds to alleviate poverty in communities. The CSBG 

program funds a State-administered network 1 of more than 1,100 local agencies that create, 

coordinate, and deliver programs and services to low-income Americans. States received 

$620.4 million in fiscal year (FY) 2007 and $643 million in FY 2008 through the program.
 


The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (the Recovery Act), 

provides a total of $1 billion in additional CSBG funds for FYs 2009 and 2010. As with 

annually appropriated CSBG funds, States may use Recovery Act funds to reduce poverty, to 

revitalize low-income communities, and to empower low-income families to become self-

sufficient. 


Office of Community Services

The U.S. Department of Health and Human Services (HHS), Administration for Children and
Families (ACF), Office of Community Services (OCS), oversees the CSBG program. States and
territories submit to OCS annual or biannual applications that include (1) a statement of goals
and objectives, (2) information on the specific activities to be supported, (3) areas and categories
of individuals to be served, and (4) the criteria and method for distributing funds to local
agencies.

Federal Requirements

The CSBG Act requires that:

       •	 OCS visit several States each year to evaluate their use of CSBG funds and submit annual
          reports on its findings to the visited States and Congress;

       •	 OCS provide training and technical assistance funds to States to support State monitoring
          efforts and improve the quality of local programs;

       •	 States visit all local agencies at least once during each 3-year period and more often if
          local agencies fail to meet State-established goals, requirements, and standards; and

       •	 States report performance data to OCS annually, including data on the number of people
          served by antipoverty programs.


1
    “State,” as used in this report, includes tribes that administer funds pursuant to section 677 of the CSBG Act.

                                                              1
 

Pursuant to Office of Management and Budget Circular A-123, Federal programs are responsible
for establishing and maintaining internal controls to achieve (1) effective and efficient
operations, (2) reliable financial reporting, and (3) compliance with applicable laws and
regulations.

Prior Government Accountability Office Report

At the request of Congress, the Government Accountability Office (GAO) reviewed 2 (1) OCS’s
compliance with Federal laws and standards for overseeing State efforts to monitor local
agencies, (2) five States’ efforts to monitor local agencies’ compliance with fiscal requirements
and performance standards, and (3) OCS’s targeting of Federal CSBG training and technical
assistance funds to assist local agencies with financial or management problems and the results.

GAO reported that OCS “lacked effective policies, procedures, and controls to help ensure that it
fully met legal requirements for monitoring states and internal control standards.” GAO also
reported that OCS did not routinely collect key information, such as State performance data, to
assess State monitoring reports, nor did it systematically use available information to assess the
States’ CSBG management risks and focus monitoring on States with the highest risk.

To help OCS provide better oversight of State agencies, as well as to ensure that OCS has the
internal controls to fulfill its CSBG monitoring responsibilities, GAO made nine
recommendations to OCS. Five recommendations were for executive actions:

    •	 Conduct a risk-based assessment of State CSBG programs by systematically collecting
       and using information.

    •	 Establish policies and procedures to help ensure that OCS’s onsite monitoring is focused
       on the States with the highest risk.

    •	 Issue guidance on State responsibilities for complying with the requirement to monitor
       local agencies at least once during each 3-year period.

    •	 Establish reporting guidance for training and technical assistance grants that would allow
       OCS to obtain information on the outcomes of grant-funded activities.

    •	 Implement a strategic plan to focus OCS’s training and technical assistance efforts on the
       areas in which States face the greatest needs.

The four remaining recommendations, which GAO provided separately in a February 2006 letter,
were directed at strengthening OCS’s internal controls to fulfill its CSBG monitoring
responsibilities. Specifically, GAO recommended that OCS establish written policies and
procedures for:


2
 “Community Services Block Grant Program: HHS Should Improve Oversight by Focusing Monitoring and
Assistance Efforts on Areas of High Risk.” GAO-06-627, June 2006. Available at www.gao.gov/cgi-
bin/getrpt?GAO-06-627. Accessed June 5, 2009.

                                                   2
 

   •    ensuring that teams conducting monitoring visits include staff with the requisite skills,

   •    ensuring the timely completion of monitoring reports to States,

   •    maintaining documentation on monitoring visits, and

   •    ensuring the timely issuance of annual reports to Congress.

OCS informed GAO that it planned to make several changes to improve CSBG oversight and
that it had begun to address the recommendations in the report.

Office of Inspector General Reviews

This review is the first of a series of reviews that will address the internal control structure of the
CSBG program. We are conducting these reviews in response to the $1 billion appropriated for
the CSBG program by the Recovery Act for FYs 2009 and 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the status of corrective actions that OCS took to address GAO’s
recommendations.

Scope

We reviewed OCS’s internal controls for the CSBG program as they related to the status of the
2006 GAO recommendations. We reviewed only those internal controls considered necessary to
achieve our objective. We will evaluate the effectiveness of the policies and procedures that
OCS established in response to GAO’s recommendations in separate reviews of the internal
control structure of the CSBG program.

We did not review the status of the recommendation to issue guidance on State responsibilities
for monitoring local agencies at least once during each 3-year period because GAO already
approved OCS’s corrective actions. We did not review the status of two other recommendations
(to establish reporting guidance for training and technical assistance grants and to implement a
strategic plan to focus OCS’s efforts on areas with the greatest needs) because we are addressing
these recommendations in separate reviews.

We performed our fieldwork at OCS in the District of Columbia in April and May 2009.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws and guidance,

                                                   3
 

   •	 interviewed OCS personnel and reviewed OCS’s internal policies to determine the steps
      that OCS had taken to implement GAO’s recommendations, and

   •	 discussed our results with OCS officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                     RESULTS OF AUDIT

OCS implemented the six recommendations that we reviewed. Specifically, in response to the
recommendations for executive actions, OCS conducted a risk-based assessment of State CSBG
programs and established policies and procedures to help ensure that OCS’s onsite monitoring
was focused on the States with the highest risk. In response to the four recommendations
directed at strengthening OCS’s internal controls to fulfill its CSBG monitoring responsibilities,
OCS developed written policies and procedures in the areas that GAO identified.

Because OCS implemented GAO’s recommendations for corrective action, this report has no
recommendations. We will evaluate the effectiveness of the newly implemented policies and
procedures during our reviews addressing the internal control structure of the CSBG program.

RECOMMENDATIONS FOR EXECUTIVE ACTIONS

Conduct a Risk-Based Assessment of State Community Services Block Grant Programs by
Systematically Collecting and Using Information

GAO’s audit found that OCS did not systematically collect and use available information, such
as the results of State monitoring of local grantees, to assess States’ risks related to managing
their CSBG programs.

We found that OCS had conducted a risk-based assessment of State CSBG programs.
Specifically, OCS had systematically collected and used information from States and local
grantees to determine the level of risk based on the following six factors:

   •	 the number of local grantees identified by a State as vulnerable, in crisis, terminated, or
      having corrected past problems;

   •	 the complexity of each State’s monitoring efforts in relation to the State’s physical size,
      number of eligible grantees, and personnel allocated to the CSBG program;

   •	 poverty in the State;



                                                 4
 

   •	 the total number of people served by the grantees in the State in relation to the total
      number of eligible grantees in the State;

   •	 Office of Management and Budget Circular A-133 audit reports; and

    • the timeliness of State CSBG plans.
Establish Policies and Procedures To Help Ensure That Onsite Monitoring
Is Focused on the States With the Highest Risk

GAO’s audit found that OCS did not have a risk-based strategy for selecting States for onsite
monitoring.

We found that OCS had begun establishing policies and procedures to help ensure that its onsite
monitoring was focused on the States with the highest risk. Specifically, OCS had developed
triennial schedules for State assessments that place a priority on conducting site visits in States
that OCS deems will benefit most from the review. Of the 18 States on the 2008–2010 schedule,
5 were ranked in the top 10 for risk. The schedule also included reviews of States at lower risk.
According to OCS staff, these lower risk States were included to ensure geographic diversity and
to identify best practices that could be replicated in other States.

After we completed our fieldwork, OCS established written policies and procedures to ensure
that onsite monitoring was focused on the States with the highest risk. According to these
policies and procedures, OCS’s future triennial schedules will place a priority on assessing the
States at highest risk.

RECOMMENDATIONS FOR INTERNAL CONTROLS

Establish Written Policies and Procedures for Ensuring That Teams
Conducting Monitoring Visits Include Staff With the Requisite Skills

GAO’s audit found that OCS staff lacked the requisite skills to perform State monitoring visits.
Specifically, OCS staff lacked the expertise needed to assess the financial operations of State
CSBG programs, a key component of the CSBG monitoring process.

We found that OCS had established policies and procedures for ensuring that teams conducting
monitoring visits include staff with the requisite skills. In addition, OCS stated that it had
created a financial operations team and recruited both Federal and contract staff with the
financial analysis and monitoring skills needed to serve on the team. OCS also informed us that
it had awarded a financial monitoring contract to provide staff possessing requisite skills
(certified public accountants, auditors, financial management experts, and grant management and
program specialists) to assist in conducting State assessments.

After our fieldwork, OCS provided us with written policies and procedures for ensuring that
teams conducting monitoring visits include staff with the requisite skills.



                                                 5
 

Establish Written Policies and Procedures for Ensuring Timely Completion of
Monitoring Reports to States

GAO’s audit found that OCS did not issue monitoring reports to any of the six States that it
visited during FYs 2003 and 2004. Although OCS monitoring procedures directed staff to write
reports after visits and to send draft reports to State agencies for review and comment before
final issuance, the procedures did not include specific timeframes for completing these steps.

We found that OCS had established policies and procedures for ensuring the timely completion
of monitoring reports to States. Specifically, OCS had developed procedures for ensuring that
the timeframe from the beginning of the monitoring process until the issuance of the final report
was approximately 180 days. In addition, the State assessment team now develops detailed work
plans for each State assessment, including internal deadlines for the State to provide information
and a response to the draft report.

After our fieldwork, OCS provided us with written policies and procedures for ensuring the
timely completion of monitoring reports to States.

Establish Written Policies and Procedures for Maintaining Documentation on
Monitoring Visits

GAO’s audit found that OCS’s file management policies did not include procedures for
maintaining documentation on monitoring visits to States. Although OCS officials agreed that
program files should include such documentation, OCS could not locate key documents related
to its monitoring visits in 2003 and 2004. OCS officials stated that staff responsible for carrying
out monitoring activities had retired and that the files could not be located.

We found that OCS had established policies and procedures for maintaining documentation on
monitoring visits. Specifically, OCS had implemented procedures for maintaining hardcopy and
electronic documentation for the nine States that it had visited since GAO released its report.
OCS officials stated that they also had contracted with record management specialists and
implemented a system that improved OCS’s ability to account for all official monitoring
documentation.

After our fieldwork, OCS provided us with written policies and procedures for maintaining
documentation on monitoring visits.

Establish Written Policies and Procedures for Ensuring the Timely Issuance of
Annual Reports to Congress

GAO’s audit found that OCS had not been timely in issuing its annual reports to Congress, as
section 678E(b)(3) of the CSBG Act requires.

We found that OCS had established policies and procedures for ensuring the timely issuance of
reports to Congress. Since GAO’s review, OCS had issued three annual reports to Congress



                                                 6
 

through a process managed by the ACF Office of Legislative Affairs and Budget and the HHS
Office of the Secretary.

After our fieldwork, OCS provided us with written policies and procedures for ensuring the
timely issuance of annual reports to Congress.




                                               7
 

